HHS/OIG, Audit -"Review of Place of Service Coding For Physician Services - Wisconsin Physicians Service Insurance
Corporation, Madison, Wisconsin,"(A-05-04-00025)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Place of Service Coding For Physician Services - Wisconsin Physicians Service Insurance Corporation, Madison,
Wisconsin," (A-05-04-00025)
October 7, 2004
Complete
Text of Report is available in PDF format (148 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine
the extent of Medicare Part B overpayments made to physicians by Wisconsin Physicians Service Insurance Corporation (WPS)
for billings with incorrect place of service codes.  Seventy-nine of 100 sampled physician services were performed
in a facility, but were inappropriately billed by a physician using the incorrect “office” place of service code.  Medicare
regulations provide for higher payment for medical procedures that are performed in non-facility settings versus those
performed in facility settings.  We recommended that WPS (1) recover identified overpayments totaling $1,948; (2)
work with the physician population to reassess their billings and refund estimated overpayments totaling $742,510; (3)
educate physicians about the importance of correctly reporting place of service codes; and, (4) work with the Medicare
fiscal intermediary to identify physician services with potentially high risk for place of service coding errors, and
recover program overpayments that result from these errors.